Department of Homeland Security
   Ofﬁce of Inspector General
             TSA's Security Screening Procedures
            for Employees at Orlando International
                  Airport and the Feasibility
                              of
               100 Percent Employee Screening
                (Revised for Public Disclosure)

                         (Redacted)




OIG-09-05                                      October 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     October 28, 2008


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296), by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

In response to a congressional request from U.S. Representative Bennie G. Thompson,
Chairman of the House Committee on Homeland Security, and Representative Ric
Keller, our report addresses the strengths and weaknesses of the Transportation Security
Administration’s oversight of security-screening procedures for airport employees with
access to secure areas of an airport. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................8


    Security Breach at the Orlando Airport Highlights the Need for Additional TSA 

      Situational Awareness and Management Oversight Capabilities ...............................9 


    TSA Needs to Improve its Initial Situational Awareness Protocols.............................14 

    Recommendations.........................................................................................................17

    Management Comments and OIG Analysis .................................................................17 


    TSA Needs Changes to Improve Security and Its Regulatory Oversight
      of Non-TSA Airport Employees...............................................................................19 

    Recommendations.........................................................................................................23

    Management Comments and OIG Analysis .................................................................23 


    100 Percent Airport Employee Screenings Raises Feasibility Issues...........................25 


    Vulnerabilities Would Persist With 100 Percent Airport Employee Screenings..........29 


    Achieving an Integrated, DHS-Wide Perspective on Security at
      Airports Is Needed ....................................................................................................32

    Recommendations.........................................................................................................34

    Management Comments and OIG Analysis .................................................................34 


    Conclusion ....................................................................................................................35

Appendixes
 Appendix A: Purpose, Scope, and Methodology..........................................................36 

 Appendix B: Management Comments to the Draft Report ..........................................38 

 Appendix C: TSA’s List of Disqualifying Criminal Offenses

                (49 CFR § 1542.209 (d))....................................................................46 

 Appendix D: Airport Layout.........................................................................................47 

 Appendix E: Major Contributors to this Report ...........................................................51 

 Appendix F: Report Distribution ..................................................................................52 


Abbreviations
  ADASP            Aviation Direct Access Screening Program

  DHS              Department of Homeland Security 

  FAM              Federal Air Marshal     

  MCO              Orlando International Airport 

  OIG              Office of Inspector General 

  SIDA             Secure Identification Display Area 

  SJU              Luis Munoz Marin International Airport, San Juan, Puerto Rico 

  TSA              Transportation Security Administration   

  VIPR             Visible Inter-Modal Protection and Response 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
            At the request of Representative Bennie G. Thompson, Chairman of the
            House Committee on Homeland Security, and Representative Ric Keller,
            we reviewed the events surrounding a March 5, 2007, security breach at
            the Orlando International Airport in Florida. The breach involved two
            Comair Airline employees who smuggled 14 firearms and 8 pounds of
            marijuana onboard a Delta Airlines commercial airplane bound for San
            Juan, Puerto Rico. Specifically, we assessed (1) the actions, events, and
            communication surrounding the incident; (2) the Transportation Security
            Administration’s current oversight of airport employees; and (3) the
            feasibility of 100% airport employee screening for individuals accessing
            an aircraft or the secure areas of an airport.

            The Transportation Security Administration has made improvements to
            address vulnerabilities associated with the “insider threat” highlighted by
            the March 5, 2007, incident. These improvements include the widespread
            implementation of two random and deterrent-based screening programs:
            the Aviation Direct Access Screening Program and the Visible Intermodal
            Protection and Response Program. In addition, the Transportation
            Security Administration started conducting Security Threat Assessments
            of airport employees to assess whether workers have ties to terrorism or
            are in violation of immigration and admissibility laws.

            Even with these improvements, the Orlando incident revealed the need for
            additional changes. Specifically, the Transportation Security
            Administration needs improvements in its ability to obtain and maintain
            situational awareness of incidents, as well as updating its regulatory
            framework that governs airport employee conduct. These changes are
            necessary before a decision is made about implementing 100% employee
            screening.

            We are making six recommendations to assist the Transportation Security
            Administration in improving the overall security posture at airports. In
            response to our report, the Transportation Security Administration has
            proposed plans and actions that, once implemented, will reduce a number
            of the deficiencies we identified. The Transportation Security
            Administration concurred with all six recommendations.




       TSA’s Security Screening Procedures for Employees at Orlando International Airport
                      and the Feasibility of 100 Percent Employee Screening

                                            Page 1
Background
          On March 5, 2007, two Comair Airline employees from Orlando
          International Airport (MCO) in Florida successfully smuggled 14 firearms
          and 8 pounds of marijuana aboard Delta Airlines Flight #933 bound for
          Luis Munoz Marin International Airport (SJU) in San Juan, Puerto Rico.
          Both individuals were later arrested; one in Puerto Rico upon the flight’s
          arrival, and one in Orlando the following day.

          On March 8, 2007, Representative Ric Keller requested that we review the
          Transportation Security Administration’s (TSA) role in the events
          surrounding this incident, to determine whether the absence of specific
          screening policies for airport employees facilitated this security breach.
          On March 26, 2007, Representative Bennie G. Thompson, Chairman of
          the House Committee on Homeland Security, contacted us with a similar
          request. After considering both requests, we agreed to review the
          incident, as well as assess the security-screening procedures for non-TSA
          employees working at federalized airports nationwide.

          During subsequent discussions with congressional staff, we agreed to
          focus on three questions:

          �	 Did TSA policies cause MCO to be susceptible to security breaches,
             particularly involving the introduction of prohibited items into any
             secure areas of the airport?

          �	 What is the overall effectiveness of TSA’s oversight of airport
             employees?

          �	 What is the feasibility of implementing 100% airport employee
             screening for individuals accessing an aircraft or the secure areas of an
             airport?

          Currently, Congress is pursuing the 100% airport employee screening
          issue. In March 2007, H.R. 1413 was introduced by Representative Nita
          Lowey. This bill calls for TSA to implement a pilot program to screen all
          airport workers with unescorted access privileges to secure areas at seven
          airports. In April 2007, a similar bill, S. 1095, was introduced by Senator
          Charles Schumer. This bill calls for TSA to screen all individuals who
          have access to the secure areas of airports. This would include airport
          employees, commercial airline carrier employees, contractors, and
          vendors. Neither bill was enacted during our fieldwork.

          On December, 26, 2007, the President signed the Consolidated
          Appropriations Act of 2008, which mandates TSA evaluate 100%

     TSA’s Security Screening Procedures for Employees at Orlando International Airport
                    and the Feasibility of 100 Percent Employee Screening

                                          Page 2
                  employee screening at three airports and assess alternative employee
                  screening measures at four other airports. Congress provided TSA $15
                  million for this pilot program, which was scheduled to run from May 2008
                  through July 2008.

                  The three airports participating in the 100% employee screening pilot
                  program were Boston Logan International Airport in Massachusetts,
                  Craven Regional Airport in North Carolina, and Jacksonville International
                  Airport in Florida. The four airports piloting alternative screening
                  measures were Denver International Airport in Colorado, Kansas City
                  International Airport in Missouri, Mahlon Sweet Field Airport and
                  Southwest Oregon Regional Airport in Eugene and North Bend, Oregon
                  respectively.


          TSA’s Current Oversight and Screening of Non-TSA Airport
          Employees
                  TSA has more than 1,200 Transportation Security Inspectors who conduct
                  oversight by inspecting airport, airline, and cargo security operations for
                  compliance with applicable regulations. These inspections are scheduled,
                  conducted randomly, and may include one or all of the security elements
                  required by TSA.

                  TSA’s oversight of non-TSA airport employees covers a number of
                  different areas, including an airport’s security program, its badging
                  process, and “challenge” program. Since March 2007, TSA has also
                  developed three additional security programs that focus on airport
                  employee screening. The Aviation Direct Access Screening Program
                  (ADASP) is a random and deterrence-based program; and the Visible
                  Intermodal Protection and Response (VIPR) Program, is a TSA response
                  capability that may be random as a deterrent, or may be targeted. The
                  third program is TSA’s Security Threat Assessment vetting.

                           Airport Security Programs and Related Employee
                           Oversight Elements

                           Title 49 USC 1542; Airport Security, requires that each airport
                           serving domestic and foreign commercial air carriers have an
                           airport security program. This program must provide for the safety
                           and security of persons and property against acts of criminal
                           violence, aircraft piracy, and the introduction of unauthorized
                           weapons, explosives, or incendiaries onto an aircraft.1 Of the 21

1
    49 CFR § 1542.101.

             TSA’s Security Screening Procedures for Employees at Orlando International Airport
                            and the Feasibility of 100 Percent Employee Screening

                                                  Page 3
                           elements required of all airport security plans, 3 directly relate to
                           the oversight of airport employees the certification of access
                           control systems, criminal history records checks, and the use of
                           personnel identification systems.2

                           Certification of Access Control Systems

                           An airport’s access control system is required to ensure that only
                           those individuals authorized to have unescorted access into the
                           secured areas are able to gain entry. For those not authorized
                           unescorted access, the airport operator must also establish
                           procedures for escorting individuals in secured areas of the airport.
                           These requirements ensure escorted individuals are continuously
                           accompanied or closely monitored while in secured areas.3

                           An access control system must limit access from the public area to
                           the secure area of an airport. The public areas are the portions of
                           an airport such as parking facilities, airline ticketing, and baggage
                           claim, where access control or screening is not required. The
                           airport operations area includes aircraft movement areas, aircraft
                           parking areas, loading ramps, and safety areas for use by aircraft.
                           The secure area is the portion of an airport as specified in the
                           Airport Security Plan, where aircraft operators and their
                           contractors enplane and deplane passengers and sort and load
                           baggage. Within the secure area is the sterile area, also a portion
                           of an airport specified in the Airport Security Plan, where
                           individuals have access to boarding aircraft and their property must
                           be screened prior to entering. At many airports, the entire secure
                           area is also defined as a sterile area. Figure 1 illustrates the
                           relationship between the airport operating areas.




2
    49 CFR § 1542.103.
3
    49 CFR § 1542.211.

             TSA’s Security Screening Procedures for Employees at Orlando International Airport
                            and the Feasibility of 100 Percent Employee Screening

                                                  Page 4
                           Figure 1: Airport Operations Area Security Distinctions




                           Criminal History Records Check and Security Threat Assessment

                           To become eligible for unescorted access into the secured area, an
                           individual must be subjected to a fingerprint-based criminal history
                           records check and the Security Threat Assessment.4 For the
                           criminal history records check, TSA works with the American
                           Association of Airport Executives, which is responsible for
                           collecting this information from airports and providing it to TSA.
                           TSA then forwards this information to the Federal Bureau of
                           Investigation for processing, and the bureau posts the results to a
                           secure, password-protected website. Airport and airline personnel
                           security officers can then review the information and determine
                           whether an individual can be granted access based on a list of
                           disqualifying criminal offenses. The results are also provided to
                           TSA. A full list of the disqualifying crimes is in Appendix C.

                           TSA also determined that, in addition to a criminal history records
                           check, there was a need to have additional threat information
                           regarding individuals who applied for or are granted unescorted
                           access at airports. Effective October 1, 2007, TSA mandated that
                           all airport employees would need a TSA-adjudicated Security
                           Threat Assessment before airport operators could issue any type of
                           personnel identification media. This identification, also known as
                           a Secure Identification Display Area (SIDA) badge, is frequently



4
    49 CFR § 1542.209.

             TSA’s Security Screening Procedures for Employees at Orlando International Airport
                            and the Feasibility of 100 Percent Employee Screening

                                                  Page 5
                         used for unescorted access to the secure areas of an airport.5 The
                         Security Threat Assessment is a TSA-initiated, name-based check
                         that processes individual names through criminal, terrorist,
                         immigration, and admissibility-related databases. Some of the
                         databases used in conducting the Security Threat Assessment
                         include:

                             �	 The Terrorist Screening Database, which contains
                                information about known or suspected terrorists;

                             �	 The No-Fly List, which contains the names of people who
                                are not permitted to board a commercial aircraft for travel
                                in the United States; and

                             �	 The Selectee List, which is a security measure in the United
                                States that selects passengers for additional screening or
                                secondary inspections.

                         TSA officials said it conducts Security Threat Assessments on all
                         new airport employees and vets current employees on a perpetual
                         basis. The perpetual vetting will allow for a comparison of new
                         threat information against the names of existing airport employees
                         to account for any derogatory developments.

                         Use of Personnel Identification Systems

                         To use an access control system, an individual must successfully
                         complete the criminal history records check and the Security
                         Threat Assessment, and obtain a SIDA badge for unescorted access
                         to the secure areas of an airport.

                         Guidelines for SIDA badge systems are described in 49 CFR
                         1542.211. A SIDA badge must convey a full-face image, full
                         name, employer, and identification number of the individual to
                         whom it is issued. The badge must also be displayed on the
                         outermost garment above the waist level. There must also be
                         procedures to ensure accountability of the badges, including
                         retrieving expired badges, reporting lost or stolen badges, and
                         securing unissued badge stock and supplies.

                         The personnel media system must be audited at least once a year to
                         ensure the integrity and accountability of all identification media.

5
 Security Directive, SD 1542-04-08E, Security Threat Assessment and Reporting Requirements for
Individuals with Any Form of Airport Personnel Identification Media.

           TSA’s Security Screening Procedures for Employees at Orlando International Airport
                          and the Feasibility of 100 Percent Employee Screening

                                                Page 6
                            Also, as specified in the airport security program pursuant to
                            TSA’s Complete Airport Security Program Guide, an airport is
                            required to revalidate or reissue SIDA badges when 5% of all
                            issued, unexpired, identification media are lost, stolen, or
                            otherwise unaccounted.6 When it is determined that 5% of the
                            SIDA badges are unaccounted, the airport must issue new
                            identification media to all authorized persons or revalidate its
                            current SIDA badges. The new or revalidated SIDA badges must
                            be visually distinct from the media being replaced.

                            In addition, the air carriers and airport tenants who receive
                            identification media must provide immediate notification to the
                            airport operator when an individual’s access authority is revoked,
                            limited, or the SIDA badge is lost or stolen. When an individual is
                            terminated, the access media must be retrieved and returned to the
                            airport operator.

                            Finally, each airport is also required to establish and implement a
                            challenge program.7 This program requires each SIDA badge
                            holder to confront any individual who has accessed the secured
                            areas and is not displaying a SIDA badge that authorizes the
                            individual to be present in the area.

                            Additional TSA Security Measures
                            for Airport Employee Oversight

                            TSA also has developed two additional security programs that
                            focus on airport employee screening. On March 9, 2007, TSA
                            began conducting ADASP operations nationally, on a mandatory
                            basis. This program was designed to conduct random screening
                            operations inside the secure area in an airport, thus providing an
                            additional layer of security at airports. Under this program,
                            Transportation Security Officers can screen TSA, airline and
                            airport employees, as well as passengers and their accessible
                            property. These officers also can inspect vehicles entering an
                            airport operations area. ADASP operations consist of five
                            screening processes:

                                �	 Verification of a SIDA badge within the secure area;
                                �	 Screening individuals and their accessible property at a
                                   boarding gate;
                                �	 Aircraft inspection;

6
    Complete Airport Security Program Guide For Category X – III Airports. May 10, 2006.
7
    49 CFR § 1542.211(d).

              TSA’s Security Screening Procedures for Employees at Orlando International Airport
                             and the Feasibility of 100 Percent Employee Screening

                                                   Page 7
                         �	 Explosive Trace Detection sampling of accessible property
                            or aircraft; and
                         �	 Cargo screening.

            In June 2007, TSA also began conducting VIPR operations within the
            aviation environment. Prior to this time, VIPR operations had been
            conducted only in modes of transportation outside of the aviation
            environment. A VIPR team works with local security and law
            enforcement officials to supplement existing security resources by
            providing additional deterrence and detection capabilities, while
            introducing an element of unpredictability into transportation security.
            These operations are intended to disrupt potential terrorist planning
            activities. Depending on operational needs, teams can be formed with
            resources from TSA’s Transportation Security Officers, Transportation
            Security Inspectors, Bomb Appraisal Officers, Federal Air Marshals
            (FAM), and Behavior Detection Officers. In addition to TSA resources,
            other Department of Homeland Security (DHS) components, such as U.S.
            Immigration and Customs Enforcement Special Agents, U.S. Customs and
            Border Protection Officers, U.S. Coast Guard personnel, and explosives-
            detection canine teams are used to form VIPR operation teams.


Results of Review
            TSA policies and procedures did not cause the March 5, 2007, security
            breach at MCO because there were no specific airport employee screening
            mandates in place at that time. However, the breach highlights need for
            such policies and procedures to reduce the vulnerabilities that were
            exposed. In addition, TSA’s handling of this incident raises questions
            about TSA’s ability to obtain and maintain situational awareness of the
            incident and the regulatory framework that governs the conduct of
            employees working at an airport. While the insider threat which
            includes any current or former employee who has, or had, authorized
            access or knowledge about an organization’s exploitable internal
            workings remains a concern throughout the aviation community, 100%
            airport employee screening may not have prevented the March 5, 2007,
            incident at MCO. Before a decision is made whether to implement 100%
            employee screening, changes are necessary as to how TSA conducts its
            oversight of non-TSA airport employees.




       TSA’s Security Screening Procedures for Employees at Orlando International Airport
                      and the Feasibility of 100 Percent Employee Screening

                                            Page 8
Security Breach at the Orlando Airport Highlights the Need
for Additional TSA Situational Awareness Management
and Oversight Capabilities
        The following events are described as they unfolded at MCO and SJU
        airports. Although SJU follows Atlantic Standard Time, all times
        indicated are Eastern Standard Time. On March 5, 2007, Delta Airlines
        Flight #933 was scheduled to depart from MCO at 11:00 a.m., and arrive
        in SJU at 1:41 p.m. Flight #933 was prepared to depart from the gate at
        10:55 a.m., five minutes before its scheduled departure time.

Figure 2: Delta Flight #933 Schedule – March 5, 2007
 Flight          From              To                  Departure                   Arrival
                                                Scheduled      Actual      Scheduled     Actual
 DL 933          MCO              SJU           11:00 a.m.   11:04 a.m.    1:41 p.m.    1:38 p.m.
Source: TSA, Delta Airlines, and www.flightstats.com


        Just prior to Flight #933 leaving the gate, a police officer from the
        Orlando Police Department, Airport Division, received an anonymous tip
        that a specific airline employee was on board with a weapon. The police
        officer then placed a call directly to Delta Airlines at MCO, informing
        them of the situation. It remains unclear what information the Orlando
        Police officer specifically shared with Delta at this time, but in response to
        that call, the Delta Airlines duty manager at MCO ordered the aircraft held
        at the gate.

        During the hold, officers from the Orlando Police Department removed
        Comair employee Zabdiel J. Santiago Balaguer (Balaguer) and his carry­
        on luggage from the flight. The Delta Airlines duty manager at MCO said
        he then talked to the captain of Flight #933, who said he was comfortable
        with departing from MCO. According to Delta Airlines, Flight #933 then
        taxied to the runway and departed at 11:04 a.m.

                TSA’s Initial Awareness of the Incident

                According to TSA records, the Orlando Police Department placed a
                call directly to TSA personnel at MCO’s East Checkpoint at 11:05
                a.m. This appears to be the first communication TSA received
                regarding the situation with Flight #933. TSA’s records indicate that
                during this call, a police officer informed TSA officials that a Delta
                flight was being directed to return to gate #73 due to a possible
                weapon on board. The Supervisory Transportation Security Officer
                who received the call from the Orlando Police Department notified a
                TSA Security Manager on-site, who in-turn notified TSA’s local
                airport operations center. According to TSA records, incident

  TSA’s Security Screening Procedures for Employees at Orlando International Airport
                 and the Feasibility of 100 Percent Employee Screening

                                               Page 9
            notifications were sent to local TSA leadership at 11:07 a.m.
            Meanwhile, another TSA Security Manager and a Transportation
            Security Officer were dispatched to meet the aircraft at gate #73.
            Both individuals reported that upon arriving at the gate, the aircraft
            had departed, and police were already interviewing Balaguer.

            TSA personnel then conducted a complete screening of Balaguer and
            his carry-on luggage. The only prohibited item they discovered
            during this search was a cigarette lighter. Balaguer was detained by
            the Orlando Police Department until the Federal Bureau of
            Investigation arrived to question him.

            TSA records indicate that following the incident notifications, the
            Federal Security Director’s senior staff at MCO made two bridge
            calls, at 11:17 a.m. and 11:26 a.m., respectively. A bridge call is a
            telephone conference call used by TSA field personnel to
            communicate with headquarters and other security partners in the
            event of a security incident. Each call ended after a few minutes.

            TSA records indicate that the Greater Orlando Aviation Authority
            sent its own incident notification at 11:11 a.m. According to the
            Federal Security Director at MCO, after the plane’s departure, the
            Greater Orlando Aviation Authority notified TSA that they
            suspected another airline employee could also be involved, based on
            a review of the access control systems. The access control logs,
            along with the closed-circuit television system, are used by the
            airport authority to monitor employees entering and leaving secure
            areas of the MCO airport.

            Between 11:40 a.m. and 12:00 p.m., the Greater Orlando Aviation
            Authority confirmed with TSA at MCO that Thomas Anthony
            Munoz (Munoz) was likely on board Flight #933 with a large, black
            duffel bag that was never screened by TSA. Also, at this time, TSA
            and the Greater Orlando Aviation Authority did not know whether
            others were involved. Information from the flight manifest disclosed
            there were approximately 20 non-revenue passengers aboard the
            flight, including Balaguer and Munoz. The non-revenue passengers
            were employed by the airline and did not have to pay for the flight.

            TSA Communications Between the Orlando and San Juan
            Airports While the Flight Was En Route

            At approximately 11:30 a.m., the Federal Security Director from
            SJU received a call from the Federal Security Director at MCO
            advising him of a possible security breach concerning Flight #933 to

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 10
            SJU. During this initial conversation, TSA records indicate that
            TSA officials from MCO and SJU decided to conduct a reverse
            screening of Flight #933 upon its arrival at SJU. A reverse screening
            is a search of all aircraft passengers and their luggage upon arrival as
            a result of intelligence or law enforcement-related information. TSA
            officials made the decision to reverse screen Flight #933 prior to the
            Greater Orlando Aviation Authority informing TSA officials at
            MCO about suspicions concerning the involvement of Munoz. From
            12:17 p.m. to 1:00 p.m., TSA officials at SJU made arrangements to
            rescreen all people on board Flight #933 and their carry-on and
            checked luggage. Incident management of the possible security
            breach was handled directly between the Federal Security Directors
            at MCO and SJU.

            Reverse Screening in San Juan Identifies Munoz

            At approximately 1:38 p.m., Delta Flight #933 arrived at SJU. After
            the flight landed and was taxiing to the terminal gate, a member of
            the Delta flight crew made an announcement over the aircraft
            intercom system that TSA was going to conduct a random screening
            of passengers exiting the aircraft. This announcement described the
            screening as a routine security measure.

            According to TSA personnel at SJU, Munoz was one of the first
            individuals to exit the plane. He made a telephone call from his
            cellular phone while exiting the jet bridge. A TSA official present at
            the time said Munoz then approached the Transportation Security
            Officers conducting the screening. Munoz surrendered the black
            duffel bag in his possession, saying, “I’m busted.” After TSA
            personnel opened the bag, it was determined that Munoz was in
            possession of weapons. He was immediately taken into custody by
            the Puerto Rico Police Department.

            A full inventory of the bag later revealed it contained 13 handguns,
            1 M-4 assault rifle, and 8 pounds of marijuana, as shown in Figure 3.
            Munoz was subsequently turned over to the Bureau of Alcohol,
            Tobacco, Firearms, and Explosives for processing. TSA continued
            to screen every passenger and their luggage until the entire flight was
            cleared.




TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 11
     Figure 3: Full Inventory of Munoz’s Black Duffel Bag on Board Flight #933




              Details of the Incident Demonstrate Exactly How Orlando
              Airport Security Was Breached

              During the Bureau of Alcohol, Tobacco, Firearms, and Explosives’
              initial interrogation of Munoz, he said that he was recently in a
              difficult financial situation. Shortly thereafter he was approached
              by fellow Comair employee, Balaguer, who offered him
              approximately $4,000 to $5,000 to accompany him on a trip to
              Puerto Rico to deliver firearms and marijuana. Munoz said that on
              the morning of March 5, 2007, he and Balaguer arrived at MCO
              around 3:00 a.m., wearing their work uniforms. Internal records
              from the Greater Orlando Aviation Authority verify that on
              March 5, 2007, at 3:39 a.m. Balaguer entered the secure area of the
              airport used to sort and load luggage.

              At 3:44 a.m., closed-circuit television records show Munoz
              carrying a large black duffel bag inside the secure area. At 3:46
              a.m. Balaguer exited the area; Munoz followed at 3:48 a.m.
              Closed-circuit television records again show Munoz exiting the
              secure area, this time without the black duffel bag. Munoz would
              later admit that he hid the duffel bag in the secure area during this
              timeframe. Munoz stayed at the airport while Balaguer left the
              airport.
TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 12
              Later that morning, Balaguer returned to MCO and processed
              through a TSA screening checkpoint as a flying passenger. Once
              at the departure gate, Munoz retrieved the black
              duffel. TSA records indicate that Munoz then hid
              in a bathroom for several hours with the duffel bag
              to avoid detection. Shortly before departure,
              Balaguer and Munoz boarded the aircraft
              separately. Munoz was seated in the first class
              cabin, while Balaguer was seated in the coach
              section of the aircraft and removed as shown in
              Figure 4.

              After initially being released for lack of evidence,
              Balaguer was arrested at his home the following
              evening, March 6, 2007, by Special Agents from
              the Federal Bureau of Investigation, in conjunction
              with several other law enforcement agencies. In
              June 2007, Balaguer pleaded guilty to carrying a
              firearm during, and in relation to, a drug trafficking
              offense. In October 2007, he was sentenced to 15
              years in federal prison. In February 2008, Munoz
              pleaded guilty and was sentenced to 30 months in
              federal prison.

              Changes Made to Orlando Airport Security
              Operations As a Result of This Incident

              Following the March 5, 2007, incident, the Greater
              Orlando Aviation Authority mandated that all
              employees with planeside access undergo screening. However, the
              Greater Orlando Aviation Authority officials said that despite
              being labeled 100% employee screening, these new security
              measures only cover employees with direct access to an aircraft.
              All employees entering the sterile or secure areas from the first
              level of the airport were already being screened through the
              passenger checkpoint.

              At MCO, in addition to the first level screening, employee
              screening was instituted at employee-only checkpoints and at
              vehicle checkpoints on the airport perimeter. Before the incident,
              there were eight employee-only access points on the second level
              with no employee screening in place. These employee-only
              checkpoints provide employees who work outside the terminals


TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 13
                          with access to the secure area of MCO. Screenings at the access
                          points are performed by TSA Transportation Security Officers.

                          All employees working inside the sterile area of the terminal
                          beyond the passenger screening checkpoints are required to go
                          through TSA passenger security screening on the third level of the
                          airport. In addition to TSA’s screening of airport employees, the
                          Greater Orlando Aviation Authority performs vehicle and
                          employee screenings at all three vehicle access points that lead to
                          the secure area of the airport. Screenings at the vehicle access
                          points are performed by a contract company. One contract
                          employee verifies an employee’s SIDA badge while others search
                          the vehicles. Aside from the initial capital costs, estimated at $5.6
                          million, the Greater Orlando Aviation Authority said that its annual
                          costs for sustaining their employee screening model could range
                          from $1 million to $3 million.


        TSA Needs To Improve Its Initial Situational Awareness
        Protocols
                 Although TSA’s Security Directive 1542-04-11B requires that an airport
                 operator immediately report to the TSA Federal Security Director all
                 incidents and suspicious activities that could affect the security of U.S.
                 civil aviation; in this case, the report was not immediate.8 As noted
                 earlier, TSA officials at MCO became aware of the incident after Flight
                 #933 was en route to SJU. We determined that after the aircraft’s
                 departure, problems existed with the timeliness, accuracy, and efficiency
                 of how information was processed and shared among airport security
                 partners.

                 After the anonymous tip came into the Orlando Police Department, Delta
                 Airlines was contacted first. When the police made this call, Flight #933
                 was preparing to depart from MCO. This contact from the Orlando Police
                 Department was the only reason Flight #933 did not immediately take off
                 with both Balaguer and Munoz on board.

                 Nevertheless, once TSA officials at MCO became aware that weapons
                 might be on board Flight #933 and that an additional passenger might be
                 involved, problems existed with communicating accurate and timely
                 situational awareness of the incident.


8
 Aviation Security Directive, SD 1542-04-11B, Incidents and Suspicious Activities Reporting,
December 8, 2004.

            TSA’s Security Screening Procedures for Employees at Orlando International Airport
                           and the Feasibility of 100 Percent Employee Screening

                                                 Page 14
              TSA’s Situational Awareness of the March 5, 2007, Incident
              Was Not Adequate

              Initially, problems began when the Federal Security Director at
              MCO and the Freedom Center, formerly known as the
              Transportation Security Operations Center, were not notified of the
              incident in a timely manner. The Freedom Center is the single
              point of contact for security-related operations, incidents, or crises
              within all U.S. land and air modes of transportation. The center is
              to obtain and maintain situational awareness of an incident, while
              allowing Federal Security Directors to manage an incident. The
              first notification that the center received came from Delta
              Corporate Security after the flight departed. Furthermore, the
              information provided to the Freedom Center at this time was
              inaccurate. Despite the fact that the aircraft departed at 11:04 a.m.,
              TSA records indicate that Delta Corporate Security told the
              Freedom Center that Flight #933 was returning to the gate due to a
              report of a passenger on board with a weapon.

              As noted earlier, by approximately 11:30 a.m., local TSA officials
              from MCO and SJU had decided to rescreen the flight upon its
              arrival in SJU. Between 11:40 a.m. and 12:00 p.m., the Greater
              Orlando Aviation Authority and TSA officials at MCO confirmed
              that Munoz was aboard Flight #933, and was probably in
              possession of a large, black duffel bag containing either weapons,
              drugs, or both. By all accounts, every interested party should have
              been aware that the flight was going to be rescreened by
              approximately 11:30 a.m., and aware that another suspect was on
              board by 12:00 p.m. However, TSA records indicate that
              inaccurate or untimely information continued to circulate among
              several key TSA officials until after 1:00 p.m. Figure 5 is an
              accounting of the erroneous or untimely exchanges that continued
              to circulate through TSA after 11:30 a.m.




TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 15
Figure 5: Information Shared Within TSA
    Telephonic Communications                                Information
To              From
Freedom Center Federal Air                        Delta Flight #933 has been pulled
                Marshals’ Mission                 back to the gate [at MCO] per law
                Operations Center                 enforcement.
Freedom Center TSA MCO                            Employee from Delta Flight #933
                                                  deplaned for drugs.
Freedom Center       Delta Corporate              Delta Corporate was advised [by
                     Security                     TSA] that Flight [#933] was
                                                  arriving with 20 employees
                                                  onboard with weapons and drugs;
                                                  inquiring if aircraft needs reverse
                                                  screening.
Federal Air          Federal Air                  After calling in for a status update,
Marshals’            Marshals’ Orlando            the Orlando Field Office is
Mission              Field Office                 informed that a passenger had
Operations                                        bypassed security at MCO, but
Center                                            there was no weapon involved, per
                                                  the Freedom Center. The Orlando
                                                  Field Office contacts the Freedom
                                                  Center for clarification

SJU                  Freedom Center               SJU reports the flight will be
                                                  rescreened upon arrival because it
                                                  is believed another passenger
                                                  might have weapons on board
Freedom Center       Federal Air                  Request made that the plane be
                     Marshals                     reversed screened in SJU
                     [Location unknown]

                 Despite many serious concerns voiced about this security breach,
                 TSA did not take corrective action in several areas.

                     �	 First, TSA made limited efforts to investigate the actions of
                        Delta Airlines during this incident. We have concerns that
                        Delta might have failed to meet its reporting
                        responsibilities regarding the Aircraft Operator Standard
                        Security Program. As the regulating entity, TSA should
                        have conducted a full assessment of Delta Airlines’ role to
                        determine whether corrective action was necessary.

                     �	 Second, TSA never conducted any internal assessments to
                        determine why inaccurate or untimely information

   TSA’s Security Screening Procedures for Employees at Orlando International Airport
                  and the Feasibility of 100 Percent Employee Screening

                                        Page 16
                       continued to circulate throughout the organization after
                       11:30 a.m.

                  �	 Finally, the information concerning this breach
                     disseminated throughout TSA, in its Tuesday,
                     March 6, 2007, Executive Daily Summary, inaccurately
                     included information that “parts of weapons and drugs were
                     found and seized.” It also omitted any mention that the two
                     individuals involved were airline employees.

              TSA could have capitalized on a unique opportunity to assess its
              situational awareness capabilities, and redefine its response
              protocols and criteria to mitigate similar, future security breaches.

              At the time of the incident, TSA policies did not cause MCO to be
              susceptible to the security breach, nor did TSA have an
              opportunity to respond prior to the aircraft’s departure from MCO.
              However, TSA’s inability to obtain and maintain adequate
              situational awareness, and continued circulation of inaccurate and
              untimely information, raise concerns regarding TSA’s oversight
              responsibilities.

     Recommendations
              We recommend that the Assistant Secretary for the Transportation
              Security Administration:

              Recommendation #1: Enact national security measures that
              ensure TSA has the opportunity to clear an aircraft for departure
              when law enforcement officers intervene prior to a scheduled
              departure.

              Recommendation #2: Evaluate the March 5, 2007, incident at the
              Orlando International Airport in Florida, develop an assessment of
              Delta Airlines’ role, and determine whether incident management
              protocols, oversight responsibilities, or training procedures need to
              be revised.


     Management Comments and OIG Analysis
              We evaluated TSA’s written comments and have made changes to
              the report where we deemed appropriate. A summary of TSA’s
              written response to the report’s recommendations and our analysis


TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 17
              of the response follows each recommendation. A copy of TSA’s
              response, in its entirety, is included as Appendix B.

              TSA Response: TSA concurred with Recommendation 1. In its
              response, TSA management said they have adopted national
              security measures to ensure that TSA has the opportunity to clear
              an aircraft for departure when law enforcement officers intervene
              prior to a scheduled departure. These measures are outlined in a
              TSA/Federal Aviation Administration joint operating procedures
              memorandum and a TSA-issued security directive to airport
              operators.

              In October 2004, TSA and the Federal Aviation Administration
              developed joint operating procedures to provide Air Traffic
              Managers and Federal Security Directors with guidance for
              responding to both immediate and non-life threatening situations.
              The guidance states in part that, “if in the opinion of the Federal
              Security Director, there is an imminent and potentially life
              threatening security situation, the Air Traffic Managers, consistent
              with safety, will comply with the Federal Security Director’s
              requested operational response.

              Additionally, TSA issued a Security Directive (SD 1542-04-11B)
              on December 8, 2004, which requires airport operators to
              immediately notify Federal Security Directors of all incidents and
              suspicious activities that could affect the security of U.S. civil
              aviation. The Aircraft Operator Standard Security Program also
              requires aircraft operators to notify the Freedom Center
              immediately of suspicious activities that could affect the security
              of aviation. TSA is considering procedural changes to ensure that
              Federal Security Directors also receive timely notification of such
              reports.

              OIG Analysis: We consider TSA’s proposed actions responsive
              to the recommendation, which is resolved and open. This
              recommendation will remain open until procedures are in place to
              ensure that TSA is notified when law enforcement intervenes with
              a flight prior to departure. TSA should also consider that resources
              are made available to respond timely to affected flights, in an effort
              to limit potential flight delays.

              TSA Response: TSA concurred with Recommendation 2. In its
              response, TSA management said after the March 5, 2007, incident,
              TSA and the stakeholders at the Orlando International Airport held
              a series of meetings and made several improvements, including

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 18
                meeting with the Delta Station and Operations Managers on duty
                during the incident and changing the reporting procedures to
                ensure TSA is immediately notified whenever law enforcement is
                called to an aircraft. TSA will review the actions taken at MCO,
                develop best practices to share with all Federal Security Directors
                and encourage implementation at other airports.

                OIG Analysis: We consider TSA’s proposed actions responsive
                to the recommendation, which is resolved and open. This
                recommendation will remain open pending the receipt of
                documentation that demonstrates:

                    �	 Orlando TSA and the Greater Orlando Aviation Authority
                       changed the reporting procedure to ensure TSA is
                       immediately notified whenever law enforcement is called
                       to an aircraft;
                    �	 Orlando TSA changed the process to ensure TSA senior
                       staff is notified of all law enforcement calls to aircraft;
                    �	 Orlando TSA, the Greater Orlando Aviation Authority, and
                       other stakeholders including law enforcement conducted
                       tabletop exercises to test incident management protocols;
                       and,
                    �	 Greater Orlando Aviation Authority Airport Security Plan
                       change that delineates and clarifies the reporting
                       requirements from the airport to TSA.


TSA Needs Changes to Improve Security and Its Regulatory
Oversight of Non-TSA Airport Employees
       Since the March 5, 2007, incident, TSA has taken steps in several areas to
       improve its overall security posture at airports, including the introduction
       of its Security Threat Assessment vetting, as well as mandating that all
       airports implement an ADASP program.

                Regulatory Framework is Outdated

                While these changes have improved overall airport security,
                additional changes are necessary to enhance the security posture of
                airports nationwide. Specifically, TSA conducts oversight of non-
                TSA employees’ at all federalized airports. TSA’s oversight
                covers a number of different areas, including an airport’s security
                program, and its badging process and challenge program.
                However, the regulatory framework that TSA relies upon to
                conduct its oversight is outdated, and does not adequately address

  TSA’s Security Screening Procedures for Employees at Orlando International Airport
                 and the Feasibility of 100 Percent Employee Screening

                                       Page 19
                           the vulnerabilities associated with the insider threat stemming from
                           any employee with knowledge about an airport’s internal
                           operations.

                           For example, during our fieldwork, we determined a number of
                           airports, on their own initiative, have significantly improved
                           security by implementing practices and measures that exceed the
                           basic requirements of the airport security program.

                           Specifically, the program requires all airports have an access
                           control system to prevent and detect the unauthorized entry,
                           presence, and movement of individuals and ground vehicles into
                           and within the secured area. While some airports we visited have a
                           three-tier biometric access control system in place, others rely on a
                           basic one-part swipe of a SIDA badge as their access control
                           system.9 Although employees are required to immediately report a
                           lost badge, one-part swipe systems could enable anyone to gain
                           access to a secure area by simply obtaining a badge from an airport
                           employee. While the one-part swipe system is acceptable under
                           the current regulations, it provides no assurance that the person
                           using the badge is the same person who was cleared through the
                           criminal history records check and Security Threat Assessment
                           vetting processes. Through the use of the one-part swipe system,
                           anyone who obtains an active SIDA badge could potentially
                           circumvent an airport’s security by gaining access to the secure
                           areas of an airport.

                           Furthermore, while the name-based Security Threat Assessment is
                           conducted on a recurring basis, conducting the criminal history
                           records checks is only required when an employee is initially
                           hired. As long as an employee maintains continuous employment,
                           a subsequent criminal history records check is not performed.
                           When an employee is convicted of a disqualifying criminal offense
                           during employment, the employee is required to report the offense
                           to the airport operator and surrender his or her access medium
                           within 24 hours of the conviction or a finding of not guilty by
                           reason of insanity.10 However, we were told by a number of airline
                           and airport officials that employees will not voluntarily disclose
                           this information because the employees know they will lose their
                           jobs.


9
  A three-tier biometric access control system requires confirmation of a valid SIDA badge, input of a 

personal identification number, and identity confirmation through biometrics before access to the secure 

area is permitted. 

10
   49 CFR § 1542.209 (l)(2). 


            TSA’s Security Screening Procedures for Employees at Orlando International Airport
                           and the Feasibility of 100 Percent Employee Screening

                                                  Page 20
              Also, TSA regulations do not have a requirement to conduct
              financial checks on airport employees. In regard to the
              March 5, 2007, incident, one of the individuals arrested said his
              financial problems led to his involvement in smuggling guns and
              drugs from Orlando to San Juan.

              One airport authority Director of Security said changes are needed
              to help harden the vulnerabilities associated with the insider threat.
              This includes implementing new regulations that govern the
              behavior of airport employees, particularly a requirement for all
              airport employees to have recurrent criminal history record checks.
              The Director of Security said TSA needs to modify its official
              guidance and regulations, instead of issuing repeated TSA Security
              Directives, which imply “temporary” changes. The Director also
              said airport authorities are reluctant to make substantial changes
              based upon Security Directives, because directives are subject to
              change on short notice.

              Additional Changes Can Enhance the ADASP Program

              The ADASP program is designed to facilitate random and
              unpredictable screening of airport employees and vehicles entering
              any location or route that provides access to secure, sterile, and air
              operation areas. Although the program was established recently,
              most airport authorities, airlines, airport police, and vendors we
              interviewed said ADASP is an effective deterrent against airport
              employees bringing prohibited items to the airport. However,
              airport employees know the ADASP program is based on random
              screenings, so some might wait until the ADASP team leaves a
              particular location, or they might use another entry point. We were
              also told that employees use their cell phones to alert other
              employees about ADASP locations to avoid screenings.

              During fieldwork, we noticed inconsistent implementation of
              ADASP screening at employee entrance doors. At most airports,
              we observed the ADASP teams setting up screening stations in
              front of the employee access doors to the secured area. At several
              airports we observed employees turning away after seeing the
              ADASP screening station. At another airport, the screening station
              was set up inside the employee entrance door. By placing the
              ADASP team inside, employees were unaware of the screening
              until opening the door to enter the secured area. Once the door
              was open, it was too late for employees to use another access door.




TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 21
              Also at one airport, we observed close coordination between the
              law enforcement officers and the ADASP team. Both shared
              schedules and law enforcement officers accompanied the ADASP
              team while conducting vehicle gate screenings.

              Furthermore, TSA should consider requesting access control logs
              from airport authorities to conduct usage analyses. By analyzing
              the logs, they can determine whether airport employees are using
              other entrances when the ADASP teams are stationed at access
              points.

              TSA Plans Several Changes to Improve Security
              and Its Regulatory Oversight

              Officials from TSA’s Office of Security Operations said that TSA
              wants to move forward with the rulemaking process to require
              airports to conduct stricter employee background investigations.
              Also, TSA wants to improve the monitoring of unattended access
              points, such as perimeter fences, and mandate the upgrade of all
              access control systems to meet certain biometric specifications.
              TSA envisions these improvements taking four to five years to
              implement. Office of Security Operations officials said the initial
              comment period for these regulatory changes should begin before
              the end of calendar year 2008. We are encouraged that the
              proposed changes, once implemented, would improve security and
              enhance TSA’s regulatory oversight of airports nationwide.

              In addition, TSA has partnered with several industry and private
              sector groups, including Airports Council International and the
              American Association of Airport Executives, and has identified six
              alternatives to 100% employee screening that would help mitigate
              the insider threat at airports. These alternatives include:

                  �	 Enhancing behavioral recognition training for segments of
                     airport employees;

                  �	 Increasing random inspections;

                  �	 Enhancing training for all airport employees;

                  �	 Developing biometric access controls;

                  �	 Improving employee background screening; and,

                  �	 Deploying additional technologies.

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 22
                         TSA’s Administrator Hawley has advocated against committing
                         TSA “to inflexible, resource-intensive measures” that are not
                         consistent with its risk-based approach to aviation security.11
                         While TSA has taken preliminary steps to address the insider threat
                         some employees might present at airports, additional work is
                         necessary to ensure that an employee accessing the sterile and
                         secure areas of an airport is the actual person vetted and approved
                         to work in those areas.

                Recommendations
                         We recommend that the Assistant Secretary for the Transportation
                         Security Administration:

                         Recommendation #3: Change the regulatory requirements to
                         include provisions for mandating phased-in biometric access
                         controls for airport operators, and recurrent criminal history and
                         financial records checks for Secure Identification Display Area
                         badge employees.

                         Recommendation #4: Apply effective and consistent Aviation
                         Direct Access Screening Program policies and procedures at all
                         airports.

                         Recommendation #5: Establish an Aviation Direct Access
                         Screening Program working group to consider policy and
                         procedure changes based on an accumulation of best practices
                         across the country.


                Management Comments and OIG Analysis
                         TSA Response: TSA concurred with Recommendation 3. In its
                         response, TSA management said it has initiated the process to
                         include provisions for a phased-in biometric access control system
                         for airport operators. TSA is working on standards for biometric
                         access controls systems and recurrent criminal history records
                         checks for employees with unescorted access to SIDA portions of
                         airports. As for financial records checks, TSA officials said they
                         will take the recommendation into consideration.


11
  Testimony of Administrator Hawley before the U.S. House of Representatives, Committee on Homeland
Security, Subcommittee on Transportation Security and Infrastructure Protection. April 19, 2007.

           TSA’s Security Screening Procedures for Employees at Orlando International Airport
                          and the Feasibility of 100 Percent Employee Screening

                                                Page 23
              In addition, several recently issued documents provide a broad
              perspective of TSA's current thinking about biometric smart cards
              and their application at airport access control points. In May 2008,
              TSA released the Aviation Credential Interoperability Solution
              Technical Specifications to airport and aircraft operators for review
              and comment. This document discusses many of the technical
              issues that TSA will consider in establishing standards. Also, an
              advisory committee sponsored by the Federal Aviation
              Administration recently issued a document that may encourage the
              use of biometrics at airports, RTCA DO 230-B Integrated Security
              System Standard for Airport Access Control, June 19, 2008. The
              document aggregates industry best practices for employing
              perimeter security measures, including the use of biometric smart
              cards at access control points. TSA will consider the document
              when developing its standards.

              Furthermore, TSA management said they completed the employee
              screening pilots at seven airports as mandated in the Consolidated
              Appropriations Act of 2008. TSA and the Homeland Security
              Institute, an independent contractor, will evaluate the result of the
              pilots and report back to Congress as mandated in the Act.

              OIG Analysis: We consider TSA’s proposed actions responsive
              to the recommendation, which is resolved and open. The
              recommendation will remain open pending receipt of TSA’s
              finalized standards for the phased-in biometric access controls for
              airport operators and the pilot program results.

              TSA Response: TSA concurred with Recommendation 4. In its
              response, TSA management said to facilitate consistency in
              applying ADASP procedures, TSA established an ADASP
              Coordination Team in April 2007. Part of the team’s responsibility
              is to respond to ADASP questions from the field. The questions
              and responses are made available to all Transportation Security
              Officers. The Coordination Team also reviews the ADSAP
              standard operating procedures to determine whether revisions are
              necessary to clarify procedures.

              OIG Analysis: We consider TSA’s proposed actions responsive
              to the recommendation, which is resolved and closed. No further
              reporting is necessary.

              TSA Response: TSA concurred with Recommendation 5. In its
              response, TSA management said they formed a headquarters
              ADASP Coordination Team in April 2007. This team consists of

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 24
                personnel from TSA’s Procedures Division (part of the Office of
                Security Operations), Special Screening Programs, Transportation
                Security Network Management, Office of Chief Counsel, and
                Office of Compliance. The team collaborates when changes to the
                ADSAP procedures are suggested, including at the conclusion of
                an ADASP Pilot or special operation, and when questions
                regarding ADASP procedures are received from the field. The
                headquarters ADASP Coordination Team reviews the questions
                and provides clarification and guidance by posting the response on
                an electronic database accessible to all Transportation Security
                Officers.

                OIG Analysis: We consider TSA’s proposed actions responsive
                to the recommendation, which is resolved and closed. No further
                reporting is necessary.


100 Percent Airport Employee Screenings Raises
Feasibility Issues
       The March 5, 2007, incident at MCO, and subsequent media coverage
       renewed longstanding concerns about airports and the vulnerabilities
       associated with the insider threat. Even with improvements to its current
       oversight of non-TSA airport employees, some airport industry partners,
       private sector groups, and Congress are calling for 100% airport employee
       screening. While there is no current agreed upon definition of what 100%
       airport employee screening is, there are a number of important questions
       that need to be answered:

           �	 What is the purpose of 100% screening to prohibit threat objects
              from entering the secure areas of an airport or to focus more
              broadly on smuggling or other criminal activities?

           �	 Who will screen airport employees TSA or contracted personnel?

           �	 Will employees be screened to the same standards required of
              passengers? And if so,

           �	 How will exceptions be made for prohibited items from box-
              cutters to blowtorches which are required by certain employees
              to perform their jobs?

       The answers to these questions will affect the structure and costs
       associated with any model of 100% airport employee screening. Industry
       experts estimate that implementing a generalized version of employee

  TSA’s Security Screening Procedures for Employees at Orlando International Airport
                 and the Feasibility of 100 Percent Employee Screening

                                       Page 25
                screening, across the entire federalized aviation system, could cost
                anywhere from $3 billion to $6.5 billion annually.12

                The vast majority of people are only familiar with airports from the
                passenger’s perspective. Their frame of reference is limited to those
                processes that directly affect them from check-in and passenger
                screening, through the boarding process. However, there is additional
                activity at the airport that the average passenger does not see; activity that
                is vital to the operational health of an airport. This activity includes
                vendor and cargo deliveries, airplane maintenance and fueling, airport
                construction, and grounds keeping, among others. During our fieldwork,
                we visited seven airports to assess the challenges associated with
                screening employees performing functions tied to these processes. We
                met with more than 120 local representatives from TSA, airport
                authorities, law enforcement, and various business interests.

                         Perspectives from TSA’s Field Workforce

                         Overall, TSA’s senior management in the field, assuming they
                         would be charged with implementing any measures associated with
                         100% airport employee screening, expressed concern about
                         implementing such a mandate.

                         One Federal Security Director believed it was important to have
                         the capability to perform increased, or even 100% airport
                         employee screenings in response to some specific intelligence, but
                         remained skeptical that permanent employee screening was
                         necessary. Another Director believed it would be unwise to
                         consider making any changes to TSA’s current security posture
                         unless a 100% employee screening solution was targeted.

                         Regardless of one’s position on this issue, all TSA personnel that
                         we encountered seemed to agree that any additional responsibilities
                         would require a substantial influx in personnel and additional
                         resources. One Assistant Federal Security Director for Screening
                         said that it would necessitate a “parallel” workforce to screen all
                         airport employees. For FY 2008, TSA’s screener workforce totals
                         45,438 full time personnel, including 1,100 managers, with a
                         budget of approximately $2.64 billion. Thus, creating a parallel
                         workforce would necessitate an additional 45,000 employees and
                         approximately $2 billion annually to screen all airport employees.



12
  United States Commercial Aviation Partnership (USCAP). Report on USCAP Analysis of H.R. 1413 and
Alternatives. October 2007.

           TSA’s Security Screening Procedures for Employees at Orlando International Airport
                          and the Feasibility of 100 Percent Employee Screening

                                                Page 26
              Another Federal Security Director pointed out that the toughest
              change would be ensuring every airport had the local buy-in of the
              airport community. For example, mandated employee screenings
              would require additional support from local law enforcement,
              which may or may not be currently feasible at certain airports.

              Concerns Raised by Airport Authorities and Local Law
              Enforcement

              At each of the airports visited, we spoke with local airport
              authorities and law enforcement about the issue of 100% employee
              screening. Of the seven airports we visited, three had specific
              experiences with employee screening.

              At one airport, TSA assisted with a pilot screening program that
              focused on screening a select portion of airport employees with
              access to passenger aircraft. The pilot screening program was
              conducted for six weeks, and it was limited to only one of the
              airport’s terminals. During our discussions with officials, we were
              informed that 100% employee screening was feasible at this
              airport, but cautioned that consideration would have to be given to
              providing airports with the appropriate number of Transportation
              Security Officers to perform this additional tasking. Officials also
              raised several practical concerns that would have to be addressed
              should permanent employee screening be implemented at every
              terminal, to include the construction of additional bathrooms on the
              sterile side and the relocation of a trash compacting facility in the
              public area.

              At another airport, officials from the airport authority and the
              airport’s police department noted that after September 11, 2001,
              the airport immediately closed all its employee access portals and
              required everyone to go through a passenger screening checkpoint.
              The airport authority eventually reverted to allowing employees to
              go through a reduced number of employee access points, given the
              negative effect the additional employee volume was having on
              passenger screening. However, the reopening of the employee
              access points was accompanied by enhancements to the airport’s
              access control system, which currently includes a biometric hand-
              reader system. One airport official said that individuals began to
              question the screening of employees, given that many already had
              what they needed in the sterile area to “take down” an aircraft.
              Finally, the airport authority said employee screening requirements
              would necessitate around-the-clock staffing, particularly at large
              airports, to meet their operational needs.

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 27
              In addition, another airport authority has employed a third-party
              contractor since 1999 to deter theft, as well as verify the identity
              and validity of all employees using their SIDA badges to access
              the secure area. While not solely focused on screening employees
              before they enter the secure area, the contractor does play an
              important role toward enhancing the overall security posture of the
              airport.

              Opinions at the other airports we visited varied. However, one
              concern all airport authorities raised was the likelihood that any
              development would require significant infrastructure modifications
              to meet new operational requirements.

              Concerns Raised by Airport Business Partners

              At each airport visited, we met with various commercial interests,
              including airlines, concessionaires, vendors, and union officials to
              discuss this issue. These stakeholders raised many of the same
              concerns, which could be grouped into three inter-related
              categories: operations, resources, and costs.

              With regards to the effect employee screening would have on
              airport operations, a number of entities expressed concern
              regarding how employee screening might negatively affect their
              productivity. Many businesses rely on efficient shift changes and
              dual-use employees who repeatedly transition between the public
              and secure areas of an airport. One hundred percent employee
              screening would mean that the same employee would have to be
              rescreened after each egress into the public area before returning to
              the secure area.

              Tied to these operational concerns is the question of how these
              new procedures would be implemented. Currently, most airport
              employees use the nearest access point to enter the secure area in
              the normal course of their duties. However, it is widely assumed
              that should employee screening be mandated, most airports would
              have to close a number of access points to funnel employees into
              specific areas to reduce the costs associated with employee
              screening. This would force those areas to continually process
              large numbers of employees on a regular basis. Assuming TSA
              would be responsible for employee screening, this scenario would
              require those areas to be adequately staffed, in some cases on a
              24-hour basis, to handle the volume of traffic. Many airport
              business partners are concerned that TSA would not be adequately

TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 28
                staffed to deal with this new mandate, which would cause
                processing delays.

                Finally, should TSA or a contract entity be adequately staffed,
                almost all airport business partners are concerned about how this
                added requirement would be funded. The two options discussed
                target either:

                    �	 TSA, which would necessitate a substantial increase in its
                       annual budget, or

                    �	 The airport operators or airlines, which would likely pass
                       those additional costs to passengers through increased
                       ticket prices and processing fees.


Vulnerabilities Would Persist With 100 Percent Airport
Employee Screenings
       Should 100% airport employee screening be implemented, certain
       vulnerabilities would persist. Mitigating some of those vulnerabilities
       requires the introduction of technological solutions, infrastructure
       upgrades, or some combination of each; even then, no assurances can be
       made. Please see Appendix E for a four-page depiction of a typical airport
       layout.

                Employees and Contraband Baggage

                When discussing persistent vulnerabilities, several TSA officials
                said that two relatively easy ways to introduce contraband into the
                secure area would be for someone to throw a bag over a perimeter
                fence or pass a piece of luggage through a baggage claim to an
                awaiting accomplice. At some airports, baggage belts revolve
                between the public and secure areas of an airport’s baggage make­
                up area, which is an airport’s baggage staging area used to load
                and unload airline baggage.




  TSA’s Security Screening Procedures for Employees at Orlando International Airport
                 and the Feasibility of 100 Percent Employee Screening

                                       Page 29
Figure 6: Airport Perimeter Fence Line at a Category X Airport and Baggage Claim Egress
from Public Area to Secure Area




                 While such methods are extremely basic and relatively crude,
                 numerous TSA and local airport officials expressed concern
                 regarding these two possibilities. One TSA official said he
                 personally witnessed an attempt to throw a bag over a perimeter
                 fence at a particular airport we visited. These vulnerabilities could
                 be mitigated with improvements to the perimeter controls and
                 baggage claim systems at airports. However, depending on the
                 size of the facility and the current state of perimeter controls or
                 baggage claim systems, these upgrades could be costly at most
                 airports.

                 Airline Catering and Provisioning and Vendor Deliveries

                 Another method for exploiting commercial aviation involves the
                 airline catering and provisioning or vendor deliveries that occur
                 daily at airports across the country. Airline caterers and
                 provisioners supply aircrafts with meal service for domestic and
                 international flights, while vendors, as defined by TSA, include
                 anyone who is authorized to conduct business in the airport.
                 Vendors supply all the food and consumer goods sold at the
                 airport. Typically, the catering and provisioning deliveries are
                 made through an airport vehicle access gate. Vendor deliveries
                 can be made curbside at a terminal, at a vehicle access gate, or
                 both, given the policies and layout of an airport. Depending on the
                 size and volume of an airport, this can amount to hundreds of daily
                 around-the-clock arrivals.

   TSA’s Security Screening Procedures for Employees at Orlando International Airport
                  and the Feasibility of 100 Percent Employee Screening

                                        Page 30
                          According to the Aircraft Operator Standard Security Program, an
                          aircraft operator employee or authorized representative not
                          employed by the catering company, is required to ensure that each
                          catering vehicle is sterile before any catering carts can be loaded
                          for delivery.13 An inspection of catering carts must also be
                          performed prior to the employee either securing the vehicle with a
                          tamper-proof seal or escorting the vehicle directly to aircraft.

                          TSA security directives require the airport operator to inspect
                          vendor personnel and deliveries at all sterile area access points,
                          other than the screening checkpoint, to ensure the security of the
                          merchandise.14 Some Federal Security Directors have enacted
                          stricter requirements for vendors. For instance, two airports have
                          either developed or are pursuing centralized “commissary” or
                          “dock” facilities to screen all shipments arriving to the airport;
                          however, few other airports have or are contemplating a similar
                          approach.

                          In addition, law enforcement agencies have recognized the
                          vulnerabilities associated with these two processes for years. One
                          of the largest known criminal enterprises within the aviation
                          industry relied on both baggage handlers and catering employees
                          to smuggle drugs on board commercial aircraft. In 1999, the U.S.
                          Customs Service, now U.S. Customs and Border Protection; the
                          Bureau of Alcohol, Tobacco, and Firearms, now the Bureau of
                          Alcohol, Tobacco, Firearms, and Explosives; and the Drug
                          Enforcement Agency obtained 58 indictments of individuals
                          connected to this narcotics smuggling enterprise operating out of
                          Miami International Airport in Florida.

                          Cargo Facilities

                          Finally, approximately 7,500 tons of commercial cargo are
                          transported on passenger aircraft daily. We have identified
                          vulnerabilities of the oversight of passenger aircraft cargo in the
                          past.15 However, after improvements are made, contraband can
                          still be secretly brought into an airport’s operation area. At many
13
   Security of vendor and catering deliveries are covered under the Aircraft Operator Standard Security 

Program, unless otherwise amended locally. See Aircraft Operator Standard Security Program, 

April 22, 2008. 

14
   Transportation Security Administration Security Directive 1542-06-01D. The local Federal Security 

Director is permitted to approve alternative site specific procedures as needed. 

15
   Transportation Security Administration’s Oversight of Passenger Aircraft Cargo Security Faces
Significant Challenges (Redacted). Department of Homeland Security Office of Inspector General. OIG­
07-57, July 2007.

            TSA’s Security Screening Procedures for Employees at Orlando International Airport
                           and the Feasibility of 100 Percent Employee Screening

                                                 Page 31
                          airports, large cargo facilities effectively function as the boundary
                          between the public and sterile areas of an airport. This poses a
                          unique challenge for those responsible for ensuring the security of
                          these facilities because of the constant movement of goods to and
                          from an aircraft.

                          While 100% airport employee screening is feasible, there are many
                          unanswered questions as to how it would be implemented. These
                          questions, raised by TSA, industry partners, and private sector
                          groups alike, are valid and need to be addressed prior to taking any
                          steps toward implementing 100% airport employee screening.
                          Should these concerns not be addressed prior to implementation,
                          TSA will be applying resources to a system that is prone to
                          vulnerability.


        Achieving an Integrated, DHS-Wide Perspective on Security
        at Airports Is Needed
                 The March 5, 2007, MCO incident highlighted the need for accurate and
                 timely coordination and communication between all local security partners
                 at an airport. Given the complexity of the airport environment, and the
                 diverse, and sometimes overlapping responsibilities among key partner
                 organizations, timely and effective communication can be achieved only
                 when interagency relationships are already formally established and
                 exercised prior to an operational crisis.

                 At some airports, local partner organizations have developed effective
                 working relationships, often on an informal or ad-hoc basis. For example,
                 at one airport, we learned that all the local partners regularly participate in
                 TSA-led mock exercises, which help foster a sense of cooperation among
                 those who would be called upon to act in the event of an emergency.
                 These exercises, along with the airport’s daily security meetings, provide
                 partners with the opportunity to establish open lines of communication and
                 build relationships where they did not always previously exist.16
                 Unfortunately, as we learned through discussions with partner
                 organizations at several other airports, strained relationships and a lack of
                 formal procedures have affected the ability of many airport communities
                 to deal with routine situations as well as potential emergencies.

                 While DHS officials at the airports would agree that better interagency
                 coordination is a desirable goal, it is not easily achieved. As TSA officials

16
  The daily security meetings at this airport are attended by TSA, airline and concession managers, and
other federal, state, and local governmental partners.

            TSA’s Security Screening Procedures for Employees at Orlando International Airport
                           and the Feasibility of 100 Percent Employee Screening

                                                 Page 32
     continue to pursue measures that encourage better communication and
     operational practices within airport communities, DHS should also use all
     of its component capabilities, together within the aviation environment, to
     ensure the DHS-wide mission is accomplished. At many airports across
     the country, other DHS components most notably U.S. Customs and
     Border Protection and U.S. Immigration and Customs Enforcement
     already perform their mandated roles and missions. However, efforts to
     assist another component with its mission are difficult, in part because
     these attempts are not tied to shared funding, resources, evaluations, or
     operational exercises. As a result, there are no current incentives to ensure
     cross-component cooperation, especially when it comes at the expense of
     trying to meet component-specific operational responsibilities.

     Aside from the aforementioned VIPR Program, most airports have not
     established any DHS-wide cooperative efforts. At certain airports, TSA
     has been able to establish strong working relationships with other DHS
     counterparts, but this does not necessarily translate into ongoing cross-
     component cooperation. As a department, DHS must work toward
     institutionalizing cooperation across components in service of its
     overarching mission, similar to the efforts of the Department of Defense’s
     Combatant Commands or the Federal Bureau of Investigation’s Joint
     Terrorism Task Forces.

     An organization that could be used as an applicable model for ensuring
     synergy across DHS mission-sets would be the Joint Interagency Task
     Force-South, a federal interagency task force that combines personnel
     from the military, law enforcement, and intelligence communities in an
     effort to combat illicit trafficking operations in the Southern Hemisphere.
     The integration of personnel from different agencies has been successful
     because the task force has a clear, comprehensive mission supported by a
     unified, joint command. Furthermore, the Joint Interagency Task Force-
     South command has identified collective metrics that can be divided into
     more narrowly defined pieces that closely mirror the core function of each
     parent organization. This allows the components to satisfy their parochial
     interests while serving a broader mission.

     Conceptually, DHS could adapt a similar model to integrate its functional
     operation, given that several components already have a large presence at
     select airports. To be successful, an airport task force would require a
     unified command structure, shared resources, collective metrics, and an
     overarching mission. This model could be scaled to fit a regional
     configuration, which could be overseen by a senior regional director who
     would be responsible for all DHS-related activities in that region.




TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 33
     An airport with established intercomponent working relationships is more
     desirable to implement such a pilot program. While any collaborative
     model will take significant time to implement, refine, and institutionalize
     across DHS, it is important that the components begin focusing on the
     department’s broader mission, rather than individual mandates, roles, and
     responsibilities.


     Recommendations
              We recommend that the Assistant Secretary for the Transportation
              Security Administration, in conjunction with the Director of
              Operations Coordination and Planning, and in coordination with
              other department and component principals:

              Recommendation #6: Establish an intercomponent working group
              among U.S. Customs and Border Protection, U.S. Immigration and
              Customs Enforcement, and TSA, with the goal of piloting an
              integrated, DHS-wide operational concept at select airports.


     Management Comments and OIG Analysis
              TSA Response: TSA concurred with Recommendation 6. In its
              response, TSA management said that at airports with a
              combination of international and domestic operations, TSA already
              partners with U.S. Customs and Border Protection and U.S.
              Immigration and Customs Enforcement, as well as the Federal
              Bureau of Investigation, the Bureau of Alcohol, Tobacco,
              Firearms, and Explosives, the U.S. Drug Enforcement
              Administration, and state, local, and airport police. TSA said these
              partnerships demonstrate an integrated DHS operational concept.
              TSA management said it will coordinate with its colleagues within
              DHS to discuss the feasibility of establishing a DHS-wide pilot at
              select airports that have ports of entry.

              OIG Analysis: We consider TSA’s proposed actions responsive
              to the recommendation, which is resolved and open. The
              recommendation will remain open pending the receipt of
              documentation that discussions on the feasibility of establishing a
              DHS-wide pilot program have taken place.




TSA’s Security Screening Procedures for Employees at Orlando International Airport
               and the Feasibility of 100 Percent Employee Screening

                                     Page 34
Conclusion
A few months after the arrests of Munoz and Balaguer, another MCO airport
employee agreed to smuggle several firearms on board a commercial aircraft
destined for Puerto Rico during a conversation with an undercover informant.
According to published reports, the former JetBlue Airways baggage handler,
Hiram Rivera-Ortiz, was taken into custody in August 2007. After his arrest,
Rivera-Ortiz reportedly showed federal agents how easy it was to smuggle guns
past airport security at MCO. Rivera-Ortiz is currently serving 70 months in
federal prison.

This incident reinforces our initial concern about placing a high reliance on 100%
airport employee screening to address existing airport vulnerabilities. Even with a
configuration that is conducive to implementing 100% employee screening, the
insider threat at MCO remains a concern. Furthermore, airports with more access
points, multiple terminals, larger cargo operations, and fewer resources to allocate
to upgrades have vulnerabilities that are that much more palpable.

The concept of 100% airport employee screening is feasible. However, we do not
believe it is realistic at this time. Regardless of the amount of funding, resources,
and effort allocated toward this endeavor, vulnerabilities will persist. While the
intelligence, screening, and law enforcement communities continue to make
progress in addressing these vulnerabilities, 100% airport employee screening
cannot entirely bridge existing gaps. As TSA changes its regulatory
requirements, technology improves, and airports upgrade existing security
measures, implementing this concept would be more realistic and should be
revisited.




   TSA’s Security Screening Procedures for Employees at Orlando International Airport
                  and the Feasibility of 100 Percent Employee Screening

                                        Page 35
Appendix A
Purpose, Scope, and Methodology

             We assessed a March 5, 2007, security breach where two Comair Airline
             employees at the Orlando International Airport successfully smuggled 14
             firearms and 8 pounds of marijuana on board a Delta Airlines commercial
             airplane bound for San Juan, Puerto Rico. Our review was in response to
             requests from Representative Bennie G. Thompson, Chairman of the
             House Committee on Homeland Security, and Representative Ric Keller.
             The objectives of our review were to determine:

                 �	 whether TSA’s actions and communication surrounding the 

                    March 5, 2007, incident were appropriate and effective; 

                 �	 whether TSA’s oversight of non-TSA airport employees is 

                    adequate; and 

                 �	 the feasibility of 100% airport employee screening for individuals
                    accessing an aircraft or the secure areas on an airport.

             To accomplish our objectives, we interviewed or received documentation
             from TSA officials at MCO and SJU, the Greater Orlando Aviation
             Authority, Delta and Comair Airlines at MCO, TSA’s Federal Air Marshal
             Service, and the Freedom Center. We also evaluated TSA’s current and
             former processes for conducting airport employee screenings at MCO.

             To assess the overall effectiveness of TSA’s current airport employee
             screening practices and to determine the feasibility of mandating 100%
             airport employee screening, we conducted site visits at five other airports.
             During site visits, we reviewed current local airport employee screening
             practices, the background screening processes used for airport employees,
             and the SIDA badge monitoring and oversight of airport employee access
             controls.

             At each airport, we met with relevant TSA personnel, including the
             Federal Security Directors, the Assistant Federal Security Directors, and
             Transportation Security Officers. We also met with a number of TSA’s
             partner organizations, including each airport authority, several commercial
             airline representatives, airport concessionaires, aircraft catering
             companies, and union officials to discuss their views on the feasibility of
             100% airport employee screening.

             We also held meetings with union, airport, and airline industry officials
             including the American Federation of State, County and Municipal
             Employees; the American Federation of Labor and Congress of Industrial
             Organizations; the International Association of Machinists and Aerospace
             Workers; the Airports Council International; the American Association of
             Airport Executives; the International Air Transport Association; and the


        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 36
Appendix A
Purpose, Scope, and Methodology

             Airline Pilots Association to obtain their views on the feasibility of 100%
             employee screening.

             We interviewed more than 160 people including TSA personnel from TSA
             headquarters, the Office of Security Operations, the Office of
             Transportation Threat Assessment and Credentialing, the Office of
             Transportation Sector Network Management, Office of Law Enforcement,
             Office of Inspection, Federal Air Marshal Service, and the Freedom
             Center. We also spoke with personnel from U.S. Customs and Border
             Protection, and U.S. Immigration and Customs Enforcement.

             We reviewed relevant laws, regulations, policies, procedures, statistical
             information, and airport practices related to these three areas. Our
             fieldwork began in November 2007 and concluded in April 2008. We
             initiated this review under the authority of the Inspector General Act of
             1978, as amended, and according to the Quality Standards for Inspections,
             issued by the President’s Council of Integrity and Efficiency.




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 37
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 38
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 39
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 40
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 41
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 42
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 43
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 44
Appendix B
Management Comments to the Draft Report




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 45
Appendix C

TSA’s List of Disqualifying Criminal Offenses (49 CFR § 1542.209 (d))


          1.	 Forgery of certificates, false marking of aircraft, and other aircraft
              registration violations
          2.	 Interference with air navigation
          3.	 Improper transportation of hazardous material
          4.	 Aircraft piracy
          5.	 Interference with flight crew members or flight attendants
          6.	 Commission of certain crimes aboard aircraft in flight
          7.	 Carrying a weapon or explosive aboard aircraft
          8.	 Conveying false information and threats
          9.	 Aircraft piracy outside the special aircraft jurisdiction of the United States
          10. Lighting violations involving transporting controlled substances
          11. Unlawful entry into an aircraft or airport areas that serve air carriers or
              foreign air carriers contrary to established security requirements
          12. Destruction of an aircraft or aircraft facility
          13. Murder
          14. Assault with intent to murder
          15. Espionage
          16. Sedition
          17. Kidnapping or hostage taking
          18. Treason
          19. Rape or aggravated sexual abuse
          20. Unlawful possession, use, sale, distribution, or manufacture of an
              explosive or weapon
          21. Extortion
          22. Armed or felony unarmed robbery
          23. Distribution of, or intent to distribute, a controlled substance
          24. Felony arson
          25. Felony involving a threat
          26. Felony involving
              i.	 Willful destruction of property
              ii.	 Importation or manufacture of a controlled substance
              iii.	 Burglary
              iv.	 Theft
              v.	 Dishonesty, fraud, or misrepresentation
              vi.	 Possession or distribution of stolen property
              vii.	 Aggravated assault
              viii.	 Bribery
              ix.	 Illegal possession of a controlled substance punishable by a 

                     maximum term of imprisonment of more than one year 

          27. Violence at international airports
          28. Conspiracy or attempt to commit any of the previously listed disqualifying
              criminal offenses




         TSA’s Security Screening Procedures for Employees at Orlando International Airport
                        and the Feasibility of 100 Percent Employee Screening

                                              Page 46
Appendix D
Airport Layout
Airport Layout




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 47
Appendix D
Airport Layout
Terminal View




        TSA’s Security Screening Procedures for Employees at Orlando International Airport
                       and the Feasibility of 100 Percent Employee Screening

                                             Page 48
Appendix D
Airport Layout
Passenger Ticketing and Screening View




         TSA’s Security Screening Procedures for Employees at Orlando International Airport
                        and the Feasibility of 100 Percent Employee Screening

                                              Page 49
Appendix D
Airport Layout
Baggage Claim and Ground Transportation View




         TSA’s Security Screening Procedures for Employees at Orlando International Airport
                        and the Feasibility of 100 Percent Employee Screening

                                              Page 50
Appendix E
Major Contributors to this Report

                       Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                       Security, Office of Inspector General, Office of Inspections

                       Angela Garvin, Senior Inspector, Department of Homeland
                       Security, Office of Inspector General, Office of Inspections

                       Ryan Carr, Inspector, Department of Homeland Security, Office of
                       Inspector General, Office of Inspections




         TSA’s Security Screening Procedures for Employees at Orlando International Airport
                        and the Feasibility of 100 Percent Employee Screening

                                              Page 51
Appendix F
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Policy
                       Assistant Secretary for Transportation Security Administration
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       TSA Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS Program Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




         TSA’s Security Screening Procedures for Employees at Orlando International Airport
                        and the Feasibility of 100 Percent Employee Screening

                                              Page 52
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
